SIGAR                                                         Special Inspector General for
                                                               Afghanistan Reconstruction




                                                                          SIGAR Inspection 13-8



         Forward Operating Base Salerno: Inadequate
         Planning Resulted in $5 Million Spent for Unused
         Incinerators and the Continued Use of Potentially
         Hazardous Open-Air Burn Pit Operations




                                                                                  APRIL
                                                                                 2013
SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators
SIGAR
                                                 April 2013
                                                 Forward Operating Base Salerno: Inadequate Planning Resulted in
                                                 $5 Million Spent for Unused Incinerators and the Continued Use of
                                                 Potentially Hazardous Open-Air Burn Pit Operations
Special Inspector General for                    SIGAR INSPECTION 13-8
Afghanistan Reconstruction                       WHAT SIGAR FOUND
WHAT SIGAR REVIEWED                              FOB Salerno spent $5 million constructing incinerators and supporting
                                                 facilities that it will never use. The two 8-ton capacity incinerators generally
In July 2010, the U.S. Army Corps of
Engineers (USACE) awarded a $5.4                 met technical specifications and were properly sized for the base’s daily solid
million contract to construct solid              waste, assuming they could operate 24 hours per day. SIGAR found that the
waste management facilities at                   base’s threat conditions would limit the incinerators’ use to no more 12
Forward Operating Base (FOB) Salerno.            hours per day, allowing it to process only 50-57 percent of the daily solid
The contract required installing two 8-          waste. Therefore, if the incinerators were used, the base would still have to
ton capacity incinerators and                    rely on other means—such as open-air burn pit operations—for its solid waste
supporting facilities such as an ash             disposal. However, there are health concerns with breathing the smoke
landfill and management office. At the           emissions from open-air burning.
time of contract award, the base was
primarily using open-air burn pit                Although construction was never fully completed due to open “punch list”
operations to dispose of its solid               items, FOB Salerno officials accepted the facilities and closed the contract.
waste. FOB Salerno stated it was                 Also, due to the lack of maintenance the facilities have fallen into disrepair.
moving to incineration for several               In one case, stagnant water has formed in an area beneath the incinerators,
reasons including the possible health            thereby creating a possible health hazard from malaria-infected mosquitoes.
hazards to personnel from emissions              All of these factors considered, plus the estimated $1 million annually to
generated by open-air burning of solid           operate and maintain the facilities, led FOB Salerno officials to decide not to
waste material.                                  use the incinerators and supporting facilities.
This report assesses (1) whether                 Absent the incinerators, FOB Salerno continues potentially hazardous open-
construction was completed in                    air burn pit operations which violate Department of Defense guidelines and
accordance with contract requirements            U.S. Central Command regulation. Although the base is now planning to
and applicable construction standards,           contract for trash removal, it will not begin until July 2013, which is 3 to 5
(2) whether the incinerators and                 months before the base’s scheduled closure. As part of closure, FOB Salerno
supporting facilities were being used            officials are exploring options for disposing of the incinerators, but have not
as intended and maintained, and (3)              conducted a cost-benefit analysis to determine the best option for the U.S.
the status of open-air burn pit
                                                 government.
operations. SIGAR reviewed contract
and design documents, technical                  WHAT SIGAR RECOMMENDS
specifications, quality assurance
reports, and regulations governing the           SIGAR recommends that the Commander, U.S. Forces–Afghanistan, (1) take
use of open-air burn pit operations.             appropriate measures to prevent a reoccurrence of stagnant water at the
SIGAR conducted its work in Kabul,               FOB Salerno incinerator facility; (2) expedite the contract for the base’s trash
Afghanistan, and at FOB Salerno, in              removal; and (3) develop a list of disposition options for the FOB Salerno
Khowst province, from September                  incinerators, determine the most cost effective option for the U.S.
2012 through April 2013, in                      government, and provide SIGAR the results within 60 days. U.S. Forces–
accordance with Quality Standards for            Afghanistan acknowledged the first recommendation, disagreed with the
Inspection and Evaluation published              second, and concurred with the third. SIGAR also received comments from
by the Council of the Inspectors                 the U.S. Army Corps of Engineers, which were incorporated into the report, as
General on Integrity and Efficiency.             appropriate. Agency comments can be found in appendices V and VI.


                                                                                              FOB Salerno open-air burn pit operations
                                                                                              violate Department of Defense guidance
                                                                                              and a U.S. Central Command regulation.




                                                                                              Source: SIGAR, September 30, 2012


       For more information contact SIGAR Public Affairs at (703) 545-5974 or sigar.pentagon.ccr.mbx.public-affairs@mail.mil.
April 25, 2013
General Lloyd J. Austin III
Commander, U.S. Central Command

General Joseph F. Dunford, Jr.
Commander, U.S. Forces–Afghanistan, and
  Commander, International Security Assistance Force

Lieutenant General James L. Terry
Commander, International Security Assistance Force Joint Command, and
  Deputy Commander, U.S. Forces–Afghanistan

Lieutenant General Thomas P. Bostick
Commanding General and Chief of Engineers,
  U.S. Army Corps of Engineers


This report discusses SIGAR’s inspection results of the U.S. Army Corps of Engineers’ (USACE)
solid waste management (incinerators and supporting facilities) project at Forward Operating
Base (FOB) Salerno, in Khowst province, Afghanistan. The report recommends that the
Commander, U.S. Forces–Afghanistan, (1) take appropriate measures to prevent a
reoccurrence of stagnant water at the FOB Salerno incinerator facility; (2) expedite the contract
for the base’s trash removal; and (3) develop a list of disposition options for the FOB Salerno
incinerators, determine the most cost effective option for the U.S. government, and provide
SIGAR the results within 60 days.
This is the first in a series of inspections involving the construction of incinerators and
supporting facilities at U.S. bases throughout Afghanistan. SIGAR conducted this inspection
under the authority of Public Law 110-181, as amended and the Inspector General Act of
1978, as amended.




John F. Sopko
Special Inspector General
  for Afghanistan Reconstruction
                                            TABLE OF CONTENTS



Incinerators Generally Met Technical Specifications, but Could Not Meet Daily Solid Waste Disposal Needs
because of Operating Restrictions ............................................................................................................................. 2 
Not All Contract Work Was Completed, and Incinerators and Supporting Facilities Were Not Being Maintained 3 

FOB Salerno Continues to Use Open-Air Burn Pit Operations for Solid Waste Disposal ......................................... 5 
Conclusion.................................................................................................................................................................... 6 
Recommendations ...................................................................................................................................................... 6 

Agency Comments ....................................................................................................................................................... 7 
Appendix I - Scope and Methodology ......................................................................................................................... 8 
Appendix II - Summary of Incinerators and Supporting Facilities Task Order Line Items ........................................ 9 

Appendix III - Incinerators and Supporting Facilities Layout ................................................................................... 10 
Appendix IV - Timeline of Key Events ........................................................................................................................ 11 
Appendix V - United States Forces-Afghanistan Comments .................................................................................... 12 
Appendix VI - Comments from the U.S. Army Corps of Engineers ........................................................................... 15 
Appendix VII - Acknowledgments .............................................................................................................................. 18 


TABLES

Table 1 - Incinerator Processing Capacity .................................................................................................................. 3 
Table 2 - Listing of Line Items under Contract W917PM-07-D-0017 (Task Order 0011) ....................................... 9 


FIGURES

Figure 1 - Incinerators and Supporting Facilities Layout ......................................................................................... 10 

Figure 2 - Timeline of Key Eventsa ............................................................................................................................ 11 


PHOTOS

Photo 1 - Two 8-Ton Capacity Incinerators at FOB Salerno....................................................................................... 1 

Photo 2 - Bird Excrement Coating Incinerator’s Primary Burner ............................................................................... 4 
Photo 3 - Stagnant Water in Bilge Pit Beneath Incinerators ..................................................................................... 4 
Photo 4 - Open-air Burn Pit Emissions........................................................................................................................ 5 




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                                                                      Page i
ABBREVIATIONS

             FOB                        Forward Operating Base
             USACE                      U.S. Army Corps of Engineers




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators      Page ii
The U.S. Army Corps of Engineers (USACE) awarded a $5.4 million contract (W917PM-07-D-0017, task order
0011) on July 20, 2010, to Yuksel-Metag-Tepe-Yenigun-Zafer Joint Venture, a Turkish company, to construct
solid waste management facilities at Forward Operating Base (FOB) Salerno.1 The contract required installing
two 8 ton capacity incinerators (see photo 1) for processing solid waste material; storage and sorting facilities;
an ash landfill; management office; utilities,
including water tanks and communications; paving
and walkways; and security fencing.2 At the time the      Photo 1 - Two 8-Ton Capacity Incinerators at FOB
contract was awarded, the base was primarily using        Salerno
open-air burn pit operations to dispose of its solid
waste material.
International Security Assistance Force officials
decided to install incinerators at FOB Salerno,
located in Khowst province near the Afghanistan
border with Pakistan, for several reasons including
concerns about the possible health hazards to base
personnel from emissions generated by open-air
burn pit operations of solid waste material.3
For this inspection, we assessed (1) whether
construction was completed in accordance with
contract requirements and applicable construction
standards, (2) whether the incinerators and
supporting facilities were being maintained and used
as intended, and (3) the status of open-air burn pit
operations. Appendix I contains a detailed discussion               Source: SIGAR, December 11, 2012
of our scope and methodology.
We conducted our work in Kabul, Afghanistan, and at FOB Salerno from September 2012 through March
2013, in accordance with the Quality Standards for Inspection and Evaluation, published by the Council of the
Inspectors General on Integrity and Efficiency. The engineering assessment was conducted by professional
engineers in accordance with the National Society of Professional Engineers’ Code of Ethics for Engineers.




1Appendix II contains a listing of the contract’s line items and the modifications that reduced the contract’s overall value to
about $5 million. Also, throughout this report we refer to the solid waste management facilities as the incinerators and
supporting facilities.
2   Appendix III presents a layout of the incinerators and supporting facilities.
3 Some of the possible health hazards associated with smoke emitted by burning waste include breathing particulate
matter such as lead, mercury, dioxins, and irritant gases, and the effects they may have on various organs and body
systems such as the adrenal glands, lungs, liver, and stomach. See Epidemiological Studies of Health Outcomes among
Troops Deployed to Burn Pit Sites, jointly prepared by The Armed Forces Health Surveillance Center, The Naval Health
Research Center, and The U.S. Army Public Health Command (Provisional), May 2010; Afghanistan and Iraq: DOD Should
Improve Adherence to Its Guidance on Open Pit Burning and Solid Waste Management, U.S. Government Accountability
Office, GAO-11-63, October 2010; and Long-Term Health Consequences of Exposure to Burn Pits in Iraq and Afghanistan,
Institute of Medicine, Committee on the Long-Term Health Consequences of Exposure to Burn Pits in Iraq and Afghanistan,
October 2011.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                      Page 1
INCINERATORS GENERALLY MET TECHNICAL SPECIFICATIONS, BUT COULD
NOT MEET DAILY SOLID WASTE DISPOSAL NEEDS BECAUSE OF OPERATING
RESTRICTIONS

SIGAR conducted its FOB Salerno inspections on September 30, 2012 and December 11, 2012. Based on our
observations and review of design and contract documents, we found that, with the exception of some open
“punch list” items,4 the two 8-ton capacity incinerators were generally constructed in accordance with contract
technical specifications. However, our inspections were limited because the incinerators were inoperable
during our two site visits. As discussed later in this report, the incinerators and supporting facilities have never
been made operational for disposing of the base’s solid waste.5
Regional Command-East,6 within the International Security Assistance Force, initiated the incinerator project
because FOB Salerno was scheduled for expansion under the 30,000 U.S. troop surge in 2010-2011. The
written justification for the incinerators noted that the current methods of open-air pit burning or burying the
solid waste in landfills (1) could not handle the increase in personnel due to the surge, (2) created unsafe and
unhealthy emissions and contaminated the air and ground, and (3) created a danger to personnel and
potential long-term harm to the local environment.
In 2008, according to U.S. Army Central officials, planning engineers estimated FOB Salerno’s future end
strength at 3,500 personnel, with each person generating 8 pounds of solid waste per day. Based on 3,500
personnel, and considering recycling efforts, the engineers calculated that this would produce 12-13 tons of
solid waste per day. Using these numbers, planning engineers determined that the base would need a solid
waste processing capacity of 16 tons per day. As a result, the contract specified the installation of two
incinerators, each capable of processing 8 tons of solid waste per day.
FOB Salerno’s operation and maintenance manual for the incinerators states that the maximum capacity for
each incinerator is 8 tons of solid waste per day based on continuous operation or 24 hours per day. It also
notes that continuous operation only needs to be interrupted for repair, maintenance, and cleaning of several
parts of the incinerators. However, FOB Salerno is a “black-out” base due to threat conditions in the area in
which it is located. Based on SIGAR analysis, this limits the incinerators use to daylight operations or, under the
best of conditions, no more than 12 hours per day. U.S. Army Central officials informed us that the black-out
conditions were taken into consideration, but our review shows that the incinerators would have to operate
more than 12 hours per day to process the base’s solid waste.
In addition to the 3,500 personnel level used for original planning purposes at FOB Salerno, we learned at the
time of our December 2012 inspection that the base had increased to 4,000 personnel. Table 1 shows
SIGAR’s calculations of how much the two 8-ton capacity incinerators combined could process at the 3,500
and 4,000 personnel levels, given 8 pounds of solid waste generated per person, per day. The calculations
also evaluate the incinerators’ processing capacity using two scenarios: 24 hours of operation as described in
the operation and maintenance manual and 12 hours of operation due to the persistent threat conditions.




4Punch list items are a list of unfinished items that the contractor is required to complete before receiving final payment
under the contract.
5 Appendix IV presents a timeline of key events involving the construction of the incinerators and supporting facilities, and
the eventual decision not to use them.
6The International Security Assistance Force consists of six regional commands—North, South, Southwest, Capital, West,
and East.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                      Page 2
                   Table 1 - Incinerator Processing Capacity
                                                  Daily             Hours of             Daily          Capable of
                          FOB Salerno
                                                 Waste            Operation per          Waste          Processing
                           Population
                                                Generated             Day              Processed        Daily Waste

                   Average of 8 pounds generated/person/day
                              3,500               14 tons               24               14 tons            Yes

                              3,500               14 tons               12               8 tons             No

                   Average of 8 pounds generated/person/day
                              4,000               16 tons               24               16 tons           Yesa

                              4,000               16 tons               12               8 tons             No

                   Source: SIGAR analysis based on information obtained from U.S. Army Central, FOB Salerno,
                   and the incinerators’ operation and maintenance manual.
                   a   This does not allow for repair, maintenance, or cleaning time.

Table 1 demonstrates that the incinerators are not capable of processing the base’s solid waste produced by
either 3,500 or 4,000 personnel, when operating 12 hours per day due to the restricted black-out conditions.
Using these personnel numbers, the base’s incinerators can only process 8 tons, or 57 percent and 50
percent, respectively, of the base’s solid waste produced each day. FOB Salerno officials told us that they
believe even less—about 30 to 35 percent of the base’s solid waste—could be processed each day operating
under the blackout conditions. In either situation, if the incinerators were made operational the base would fall
short of processing the solid waste produced each day and, as a result, would still have to rely on other means,
such as open-air burn pit operations, for its solid waste disposal.


NOT ALL CONTRACT WORK WAS COMPLETED, AND INCINERATORS AND
SUPPORTING FACILITIES WERE NOT BEING MAINTAINED

SIGAR found that not all of the contract work had been completed before FOB Salerno took possession of the
incinerators and supporting facilities. On November 27, 2011, USACE provided the construction contractor a
letter identifying a number of deficiencies, or so-called punch list items, which needed to be remediated. For
example, the deficiencies included (1) rusted housings on electrical motors mounted on the sides of the
incinerators, (2) leaking hydraulic lines on one of the incinerators, (3) missing pipe insulation, and (4) a missing
guardrail for the incinerators’ bilge access pit. In spite of these deficiencies, in a letter dated November 28,
2011, USACE contracting officials notified the contractor that the USACE quality assurance representative had
checked the construction work and accepted it as complete.
Also in November 2011, the Defense Contract Management Agency directed its operation and maintenance
contractor to conduct a technical inspection of the incinerators and supporting facilities in preparation for
adding the facilities to its “density list.”7 The contractor had previously submitted an estimate of about




7   This is the contractor’s list of all buildings, facilities, and equipment that it is maintaining.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                     Page 3
$235,000 in mobilization costs to add the incinerators to
                                                                   Photo 2 - Bird Excrement Coating Incinerator’s
the density list. An FOB Salerno official stated that the
contractor estimated it would cost about $1 million
                                                                   Primary Burner
annually for it to provide operation and maintenance for
the incinerators and supporting facilities. Based on these
cost estimates, FOB Salerno officials decided not to include
the incinerators and supporting facilities in the operation
and maintenance contract.
The incinerators and supporting facilities were never
placed on the operation and maintenance density list, and
we found that, based on lack of maintenance, they had
fallen into disrepair. During our December 2012
inspection, the lack of maintenance was evident where we
noted that incinerator equipment, such as the primary
burner unit, was coated with bird excrement (see photo 2);
sensitive electronic connections and hydraulic valves were
corroded; and rust had developed around rotating             Source: SIGAR, December 11, 2012
equipment such as motors, pumps, and conveyors. In
addition, the incinerators’ two fuel tanks were coated in
bird excrement and the electronic level sensing devices were corroded or broken.

Lack of maintenance has resulted in the incinerators becoming a potential health hazard. The incinerators are
mounted on pillars that sit in a below-grade concrete bilge pit. The bilge pit was constructed without a drainage
pipe and, therefore, it fills with water that becomes stagnant (see photo 3). This situation creates a potential
breeding ground for malaria-infected mosquitoes, a health problem in Afghanistan. In commenting on a draft of
this report, U.S. Forces–Afghanistan stated that the stagnant water at the site is no longer an issue because
most of it has evaporated and because FOB Salerno personnel are treating the remaining puddles with
                                                            disinfecting tablets “to prevent the infestation of
                                                            mosquitoes and malaria.”
Photo 3 - Stagnant Water in Bilge Pit Beneath
Incinerators                                                  In April 2012, the FOB Salerno base engineer signed
                                                              the DD Form 1354 accepting the facility, so that the
                                                              contract could be closed out. According to the
                                                              engineer, USACE had urged him to do so. The
                                                              accompanying transmittal memorandum stated that
                                                              USACE representatives had verbally certified the
                                                              project’s completeness, the contractor had met all
                                                              requirements, and the facilities had passed the
                                                              operation and maintenance contractor’s technical
                                                              inspection. However, the base engineer noted that
                                                              the incinerators and supporting facilities punch list
                                                              items were still open, and, as a result, stated that he
                                                              was conditionally accepting the facilities. It is unclear
                                                              as to why USACE would allow the contract to be
                                                              closed out and the contractor released without
                                                              completing the open punch list items which,
Source: SIGAR, September 30, 2012
                                                              according to the Federal Acquisition Regulation,8 the


8   See Federal Acquisition Regulation 4.804 and USACE Engineering Regulation 415-345-38.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                               Page 4
contractor is responsible for remediating prior to the U.S. government accepting the facility and closing out the
contract. In commenting on a draft of this report, USACE stated that, according to an internal engineering
regulation, facilities can be accepted from the contractor and transferred to the customer with minor
deficiencies that will not interfere with the designed use of the facilities.
FOB Salerno officials told us that, in June 2012, they decided not to operate the incinerators and supporting
facilities based on three primary factors. The base would have to (1) spend about $235,000 to mobilize the
resources in preparation for the operation and maintenance contract, (2) spend about $1 million annually to
operate and maintain the incinerators and supporting facilities, and (3) would still need to use open-air burn pit
operations to dispose of most of the base’s solid waste material produced each day. As a result, FOB Salerno
officials determined that it would not be cost-effective to operate the facilities.


FOB SALERNO CONTINUES TO USE OPEN-AIR BURN PIT OPERATIONS FOR
SOLID WASTE DISPOSAL

Due to the decision not to use the
incinerators, FOB Salerno continues to rely on      Photo 4 - Open-air Burn Pit Emissions
potentially hazardous open-air burn pit
operations for its solid waste disposal (see
photo 4). This violates Department of Defense
guidance and a U.S. Central Command
regulation governing the use of this solid
waste disposal method at U.S. bases during
contingency operations.9 The guidance and
regulation acknowledge that open-air burn pit
operations are necessary during contingency
operations, especially when bases are first
established. However, the U.S. Central
Command regulation states that when a base
exceeds 100 U.S. personnel for 90 days, it
must develop a plan for installing waste            Source: SIGAR, December 11, 2012
disposal technologies, such as incinerators,
so that open-air burn pit operations can cease. The regulation further states that if incinerators are chosen,
they must be on-site within 180 days of the decision to use them and be operational 180 days after arrival.
Lastly, the regulation states that regardless of the technology chosen, open-air burn pit operations must cease
360 days after the U.S. personnel threshold has been met. According to FOB Salerno officials, the base has
remained above the 100 U.S. personnel threshold level since issuance of the guidance and regulation in 2010
and 2011, respectively.
In January 2013, FOB Salerno officials told us that the base plans to cease open-air burn pit operations and to
contract locally for trash removal to dispose of its solid waste. The target date for beginning trash removal is
July 31, 2013. However, FOB Salerno officials told us the base is scheduled for closing in the October–
December 2013 timeframe. As a result, using trash removal to dispose of the base’s solid waste will only occur



9 Use of Open-Air Burn Pits in Contingency Operations, Department of Defense Directive Type Memorandum 09-032, March

30, 2010; superseded by Use of Open-Air Burn Pits in Contingency Operations, Department of Defense Instruction
4715.19, February 15, 2011. U.S. Central Command Regulation 200-2, CENTCOM Contingency Environmental Guidance,
dated January 3, 2011.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                            Page 5
for about 3-5 months. In commenting on a draft of this report, U.S. Forces–Afghanistan stated that it is not
pursuing contracting locally for trash removal and, in fact, is requesting a waiver that would allow FOB Salerno
to continue using the burn pits to dispose of solid waste and garbage.
Due to non-use of the incinerators as well as FOB Salerno’s impending closure in the October-December 2013
timeframe, FOB Salerno officials told us they are exploring options for disposing of the incinerators. One of
those options involves dismantling the incinerators and selling them at scrap metal prices. However, the
officials stated that they have not conducted a cost-benefit analysis to determine the most beneficial course of
action for the U.S. government.


CONCLUSION

FOB Salerno wasted $5 million constructing incinerators and supporting facilities that it will never use. The
incinerators were properly sized for the base’s daily solid waste, assuming they could operate continuously.
However, that assumption proved wrong because the base’s threat conditions—known at the time when USACE
entered into the contract to construct the incinerators and supporting facilities—limit the incinerators’ use to no
more than 12 hours a day. As a result, even if the incinerators were operational, the base would still have to
employ additional methods to dispose of its daily solid waste. Further, the base accepted the facilities with
unfinished work, did not fund an operation and maintenance contract, which led to deterioration of the
facilities, and learned after construction that it would cost about $1 million annually to operate and maintain
the facilities. All of these factors considered led to the base’s decision not to use the incinerators and
supporting facilities.
Because it opted not to use the incinerators, FOB Salerno has continued open-air burn pit operations, which
violate Department of Defense guidance and a U.S. Central Command regulation. This disposal method
continues even though it is known that there are possible health risks to base personnel. Furthermore, FOB
Salerno has now canceled plans to contract for trash removal. Given its impending closure, FOB Salerno is
exploring options for how best to dispose of the incinerators, but has not conducted a cost-benefit analysis to
determine the most beneficial course of action for the U.S. government.


RECOMMENDATIONS

To ensure compliance with Department of Defense and U.S. Central Command requirements concerning the
health of base personnel and to protect the U.S. government’s investment, we recommend that the
Commander, U.S. Forces–Afghanistan:
    1. Take appropriate measures to prevent a reoccurrence of stagnant water at the FOB Salerno
       incinerator facility.
    2. Expedite the contract for solid waste removal to facilitate the earlier cessation of open-air burn pit
       operations.

    3. Develop a list of disposition options for the FOB Salerno incinerators, determine the most cost
       effective option for the U.S. government, and provide SIGAR the results within 60 days.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                           Page 6
AGENCY COMMENTS

U.S. Forces–Afghanistan and USACE provided formal comments to a draft of this report. Those comments—and
our responses to them—are reproduced in appendices V and VI, respectively.
In response to the first recommendation, U.S. Forces–Afghanistan stated that dismantling the incinerators is
the long term solution to prevent the reoccurrence of stagnant water and that it is looking for a way to do so.
Although we agree that dismantling the incinerators will ultimately eliminate the stagnant water problems, it
will be some time before the incinerators are dismantled. In the meantime, stagnant water may once again
accumulate and U.S. Forces–Afghanistan interim solution, using disinfecting tablets, alleviates only the
consequences of the problem rather than the problem itself. Therefore, we encourage U.S. Forces–Afghanistan
to develop a more immediate prevention plan.
U.S. Forces–Afghanistan disagreed with the second recommendation to expedite the contract for solid waste
removal to facilitate an earlier cessation of open-air burn pit operations, stating that there is no feasible course
of action to do so and that it will request a waiver to extend open-pit burning. First, U.S. Forces–Afghanistan
indicated that increased security required to support trips on and off the FOB to remove trash daily would have
an adverse impact on combat operations. While we are sensitive to these security concerns, we note that U.S.
Forces–Afghanistan initially planned to conduct trash removal—starting in July 2013—security conditions on
the ground, notwithstanding. Our recommendation is simply to begin this process earlier than planned.
Second, U.S. Forces–Afghanistan stated that “the Brigade Combat Team lacks the ability to properly enforce
the contractor to identify and use a suitable dump site for the garbage.” This statement is puzzling, since U.S.
Forces–Afghanistan should have both the authority and ability to design and implement a contract with the
oversight and enforcement measures needed to ensure proper performance by the contractor.
Third, U.S. Forces–Afghanistan stated that the environmental impact of the burn pit is low, as documented in
the Occupation and Environmental Health Site Assessment and the Periodic Occupational and Environmental
Monitoring Summary. Regardless of this assessment's findings, the effects of open pit burning on human
health and the environment remain controversial. In fact, a statute signed into law in January 2013 requires
tracking of U.S. military and civilian exposures to burn pits in Iraq and Afghanistan and the Department of
Veterans Affairs announced a new study in February 2013 of the long term health effects of exposure to burn
pits. Moreover, continued use of burn pits is a violation of a Department of Defense instruction and a U.S.
Central Command regulation governing the use of this solid waste disposal method at U.S. bases during
contingency operations. In particular, the Department of Defense instruction prohibits the disposal of waste in
open-air burn pits during contingency operations "except in circumstances in which no other alternative
disposal method is feasible" and requires a justification to be submitted to Congress to continue using burn
pits in such an event. Therefore, SIGAR continues to recommend that a contract for solid waste removal be
expedited. In response to the third recommendation, U.S. Forces–Afghanistan stated that it is working to
develop an appropriate FOB Salerno incinerator disposition plan that meets the requirements we stipulated
and that it is committed to providing this plan to SIGAR within 60 days. We intend to review this plan carefully
upon receiving it.
In its comments, USACE disagreed with a recommendation included in a draft of this report to conduct an
investigative inquiry to determine why the FOB Salerno incinerator construction contract was closed out
without being completed and to provide us the results within 60 days. USACE indicated that the contract had
been closed out because the open punch list items were “minor deficiencies,” which, under regulations, do not
prevent USACE from accepting the facilities from the contractor and transferring them to the customer. While
we question whether some of the deficiencies—such as leaking hydraulic lines and missing pipe insulation—
were minor in nature, we deleted this recommendation from the final report because it was implemented.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                            Page 7
APPENDIX I - SCOPE AND METHODOLOGY

This report provides SIGAR’s inspection results of the Forward Operating Base (FOB) Salerno incinerators and
supporting facilities. The base is located in Khowst province near the Afghanistan border with Pakistan. We
made two inspections at FOB Salerno on September 30, 2012 and December 11, 2012. However, these
inspections were limited because the incinerators and supporting facilities were not operational at the time of
our visits. FOB Salerno is one in a series of inspections that will examine incinerator construction projects that
have taken place at U.S. bases throughout Afghanistan.
To determine whether construction was completed in accordance with contract requirements and applicable
construction standards, whether the incinerators and supporting facilities were being used as intended and
maintained, and the status of open-air burn pit operations, we
       reviewed contract documents, design submittals, and geotechnical reports to understand project
        requirements and contract administration;
       interviewed cognizant officials regarding facility operation and maintenance;
       conducted a physical inspection, reviewed quality assurance and quality control reports, and
        photographed the incinerators and supporting facilities to determine the current status and quality of
        construction; and
       toured and photographed the open-air burn pit site.
We conducted our work in Kabul and at FOB Salerno’s incinerators and supporting facilities from September
2012 through April 2013, in accordance with Quality Standards for Inspection and Evaluation published by the
Council of the Inspectors General on Integrity and Efficiency. These standards were established to guide
inspection work performed by all of the Offices of Inspectors General. The engineering assessment was
conducted by professional engineers in accordance with the National Society of Professional Engineers’ Code
of Ethics for Engineers. We did not rely on computer-processed data in conducting this inspection. However, we
did consider the impact of compliance with laws and fraud risk.
We believe that the evidence obtained provides a reasonable basis for our findings and conclusions based on
our inspection objectives. This inspection was conducted by the Office of the Special Inspector General for
Afghanistan Reconstruction under the authority of Public Law 110-181, as amended, the Inspector General Act
of 1978, and the Inspector General Reform Act of 2008.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                           Page 8
APPENDIX II - SUMMARY OF INCINERATORS AND SUPPORTING FACILITIES
TASK ORDER LINE ITEMS

Table I shows the 14 task order line item numbers under contract W917PM-07-D-0017 (task order 0011),
along with the original, modification, and final dollar amounts.

Table 2 - Listing of Line Items under Contract W917PM-07-D-0017 (Task Order 0011)
 Line                                                      Original      Modification
                          Description                                                        Final Amount
Items                                                      Amount         Amount

0001    General construction and related requirements         $395,720                  $0        $395,720
        including design-build work throughout
        Afghanistan

0002    Design incinerators 1 and 2 and supporting            $295,934                  $0        $295,934
        facilities

0003    Construct Incinerators 1 and 2                        $840,951                  $0        $840,951

0004    Construct covered storage and sorting facility      $1,033,739         ($28,836)         $1,004,903

0005    Construct ash landfill                                $193,938                  $0        $193,938

0006    Construct waste management office                     $254,358          ($7,808)          $246,550

0007    Construct site work, site improvements (gravel        $302,064                  $0        $302,064
        area), and demolition

0008    Construct electrical services, generator pad,         $462,934       ($372,413)            $90,521
        and communication system

0009    Construct site utilities (water and sewer             $976,176                  $0        $976,176
        system) including water tanks, holding tanks,
        and pumps

0010    Construct water, sewer, and gas services in           $217,785                  $0        $217,785
        accordance with the contract documents

0011    Construct paved walkways and curbs                    $213,230                  $0        $213,230

0012    Construct storm drainage system                        $37,869                  $0         $37,869

0013    Construct anti-terrorism measures and fencing         $126,206         ($10,985)          $115,221

0014    Defense Base Act insurance                             $48,596                  $0         $48,596

        Totals                                              $5,399,500       ($420,042)          $4,979,458

Source: SIGAR summary of contract W917PM-07-D-0017 and modifications.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                    Page 9
APPENDIX III - INCINERATORS AND SUPPORTING FACILITIES LAYOUT

Figure I presents a layout of the incinerators and supporting facilities at Forward Operating Base Salerno.

                  I Figure 1 - Incinerators and Supporting Facilities Layout                            -1


                         Water
                         Pump
                         Room




                           ~
                                             I
                                              Management
                                                Oftite
                                                            l



                                                                  -
                                                                           ~        (    ..

                                             c....ed
                                           Storage Area
                           '-                                         -
                           ..-                                                                BurnPit
                                                                                               Road


                                                                               Ash Pit
                                    I               'I
                               ~           l•cinetators
                                                                 -
                               r-




                                     SOitingA,.a


                          II       water
                                                                      '=
                                   Pump                   Fuel                           =
                                                          Tanks
                          I        Room




                    Source: SIGAR-generated figure.
                    Note: Figure is not to scale.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                            Page 10
APPENDIX IV - TIMELINE OF KEY EVENTS

Figure II presents a timeline of key events in the construction and life cycle of the incinerators and supporting
facilities at Forward Operating Base (FOB) Salerno.


Figure 2 - Timeline of Key Eventsa




Source: SIGAR Analysis
Notes:
a Acronyms are as follows: CENTCOM is U.S. Central Command, DCMA is the Defense Contract Management Agency, DD Form
1391 is a Military Construction Project Data Sheet that shows the requirements and justifications in support of funding
requests for military construction projects, and USACE is the U.S. Army Corps of Engineers.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                            Page 11
APPENDIX V - UNITED STATES FORCES-AFGHANISTAN COMMENTS



                                                       HEA DQUARTERS
                                            UN !TED STATES FORCES-AFGIIANIST AN
                                                    KABUL. AFGHANISTAN
                                                        APO. A E 09356



              lJSFOR-A-JENG                                                                                15 April2013


              MEMO RANDUM FOR Special Inspector General for Afghanistan Reco nstruction, 253 0 Crystal Drive.
              Alexandria. Virginia 22202

              SUBJECT: Response to S IGAR Inspection 13-8. Forward Operating Hasc Salem o: lnadcqmnc Planning
              Resulted in $5 Million Spent for Unused Incinerators and the Cont inued Usc of i>otcntially Hazardous
              Open-air Bum Pit Operations

              I . The memorandum is in reply to the subject April 20 IJ draf1 report provided to United States Forces-
              Afghanistan for response: We appreciate ihe opportun ity to respond to this report and refer you to our
              response in t he enclosures.

             2. Po int of Contact is Lt Col Erik Sell,                                                 .




              Encl
                                                                 1/)~i[Itt
                                                               ALVIN B.
                                                                       !li~     SES
                                                               Director, JPIO
                                                               USFOR-A




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                         Page 12
            USFOR-A JENG .IPIO
            SUBJECT: SIGA R Inspection 13-8, Forward Operating l3ase Salerno: Inadequate Planning Resulted in
            $5 Million Spent for Unused Incinerators and th e Continued Usc of Potentially llazardous Open-air Burn
            Pit Operations

            Recommendation Responses to SIGAR Inspection 13-8

            SIGAR Recomme ndation 2:

            2. Take action to remove the stagnant \\ater at the FOB Salerno incinerator facilit). and take appropriate
            measures tv poCv<.:lll u o<.:v<.:<.:ull<.:ll<.:t: of tho.: prublo.:on.

            USFOR-A Respo nse:
            At the time of the initial investigation, the incinerators had a significant amount of stagnant water;
            however, it is no longer an issue due to the evaporation of most of the water. Additionally, the FOB
            Salern o preventive medicine personnel treat the remaining puddles with disinfecting tab lets to prevent the
                                                                                                                              SIGAR
            infestation of mosqu itoes and malaria. US FOR-A continues to look for a solution to dismantle the             Comment 1
            incinerators, which is the long term solution to prevent the reoccurrence of the problem.

            SIGAR Recommendation 3:

            3. Expedite the contract for solid waste removal to facilitate the earlier cessation of open-air burn pit
            operations.

            USFOR-A Response:
              on-concur - US FOR-A believes that no feasible course of action exists to conduct base trash removal,
            and consequently is processing a waiver request to ex tend open-pit burning unt il the base transfers or
            closes in the lall of20 13. The increase in security required to support numerous trips on11nd oiTthe FOB
            to remove trash dai ly wi ll have an adverse impact on combat operations. Additionally, th e Brigade              SIGAR
            Combat Team (BCT) lacks the ability to properly enforce the contractor to identify and usc a suitable          Comment 2
            dump site for the ga rbage. The environmental impact of this burn pit is low. as is evidenced by the
            enclosed May 2012 annual Occupation and Environmental Health Site Asses ment (OEIISA): it states
            that the emissions from the burn pit do not ha\ c the potential to allect personnel. rhe next OEHSA \\ill
            occur in May 2013. We have also enclosed the Periodic Occupational and Environmental Monitoring
            Summa!) (POeMS), \\hich summarizes air. water. and soil samples from 18 October 2002 to 29 March
            2011.

            SIGAR Recommendat io n 4:
            4. Develop a list of disposition options for the FOI3 Salerno Incinerators. determine the most cost
            effective option for th e U.S. Government, and provide SIGA R the l'esults within 60 days.

            USFOR-A Res ponse:

            Acknowledge- US FOR-A is committed to dctcm1ining an appropriate FOB Salerno incinerator
            disposition plan that is safe. cost effective and in accordance \\ith applicable policy and guidance within
            60 da)s.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                          Page 13
                           SIGAR Response to U.S. Forces–Afghanistan Comments
    1. Although we agree that dismantling the incinerators will ultimately eliminate the stagnant water
       problems, the incinerators are not scheduled to be dismantled until the fall of 2013. In the meantime,
       stagnant water may once again accumulate, and the U.S. Forces–Afghanistan interim solution—using
       disinfecting tablets—alleviates only the consequences of the problem, rather than the problem itself.
       Therefore, we encourage U.S. Forces–Afghanistan to develop a more immediate prevention plan.
    2. While we are sensitive to the security concerns cited in agency comments, we note that U.S. Forces–
       Afghanistan initially planned to conduct trash removal—starting in July 2013—security conditions on
       the ground, notwithstanding. Our recommendation is simply to begin trash removal at an earlier date.
       Furthermore, U.S. Forces–Afghanistan should have both the authority and ability to design and
       implement a contract with the oversight and enforcement measures needed to ensure proper
       performance by the contractor. Finally, while the assessment cited found the health risk of open-air
       burn pits to be low, their continued use violates Department of Defense guidance and a U.S. Central
       Command regulation. Moreover, the Department of Veterans Affairs has received numerous
       complaints about health problems alleged to have been caused by exposure to burn pits in Iraq and
       Afghanistan. Therefore, we maintain that a contract for solid waste removal should be expedited.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                     Page 14
APPENDIX VI - COMMENTS FROM THE U.S. ARMY CORPS OF ENGINEERS




                                                      DEPARTMENT O F THE ARMY
                                                   UN!TIZD STATES A RMY CORPS OF ENGINEERS
                                                            TRANSATLANI"IC DIVISION
                                                             255 FORT COLLIFR ROAn
                                                         WINCHESTER. VIRGINIA 22603
                                 Rli:PI. \ ' TO
                                 A TTE~TION Of'


                                                                  April23, 2013

                     Internal Review Office




                     Mr. John F. Sopko
                     2530 Crystal Drive,
                     Arlington, Virginia 22202-3940

                     Dear Mr. Sopko:

                        Enclosed is U.S. Army Corps ofEngim:e;:rs, Transatlantic Divis ion response to
                     recommendation I contained in SIGAR Draft Inspection Report 13-0!!, Forward Operating Base
                     Salerno: Inadequate Plruming Resulted In$ 5 Million Spent For Unused Incinerators And The
                     Continued Use Of Potentially Hazardous Open-Air Burn Pit Operations.

                        My point of contact for these comments is Mr. George Sullivan, Chief, Internal Review at


                                                                          Sincerely,




                                                                     J
                                                                       /,~S.~
                                                                          JohnS. Ilurl~;~~     U
                                                                          Colonel, Engineer
                                                                          Deputy Commander

                     Enclosure




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                  Page 15
             US ACE Comments to SIGAR Draft Inspection Report 13-8, Forward Operating Base Salerno:
             Inadequate Platming resulted In $5 Million Spent For Unused Incinerators And The Continued
             Use Of Potentially Hazardous Open-Air Bum Pit Operations

             US ACE comments are provided as show n.

             Recommendation

             To protect the U.S. Government's investment, we recommend that. the Commanding
             Gener-al, USACE:

             Reconunemlation 1. Conduct an investigative inquir-y to determine why the FOB Salemo
             incinerator construction contr-act was closed out. without bring completed, and provide
             S IGAR the results within 60 days.

             US ACE Response. Non-concur. As stated by SIGAR on page 2 of the report, the incinerators
             were constructed in accordance with contract technical specifications with the exception of
             some open punch list items. '111(J open punch list items cited by S!GAR ((J) rusted housing on
             e lectrical motors, (2) leaking hydraulic lines on one incinerator, (3) missing pipe insulation, and
             ( 4) a missing guardrail) were minor deficiencies that should not have delayed transfer of the
             incinerators. Per Engineer Regulation 415-345-38, faciliti es "completed with minor
             deficiencies which will not interfere with the des igned use of the facilities, will be accepted
             from the contractor and transfen·ed to the customer. " The regulation further states that "any            SIGAR
             fhrther minor deficiencies disclosed during the inspection will nom1ally not be justification to       Comment 1
             delay transfer." Under some circums tances, minor deficiencies such as these may also be
             addressed as warranty items requiring coordination between the customer and construc tion
             contractor. US ACE will coordinate with the customer to ensure that a ll punch list items have
             been completed.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                                                   Page 16
                                     SIGAR Response to USACE Comments
    1. While we question whether the deficiencies were minor, we deleted this recommendation because
       USACE implemented it in the process of responding to our draft report.




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators                               Page 17
APPENDIX VII - ACKNOWLEDGMENTS

Crawford “Les” Thompson, Senior Inspection Manager
Milton Naumann, Auditor-in-Charge
Adriel Harari, Senior Auditor
William Dillingham, Civil Engineer




SIGAR Inspection 13-8/Forward Operating Base Salerno Incinerators   Page 18
                                       This inspection report was conducted
                                         under project code SIGAR-I-007A.




SIGAR Inspection 13-7/Forward Operating Base Salerno Incinerator Facility     Page 19
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                           improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                           improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                           improve contracting and contract management
                                            processes;
                                           prevent fraud, waste, and abuse; and
                                           advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
                               site (www.sigar.mil). SIGAR posts all publically released reports,
   Reports and Testimonies     testimonies, and correspondence on its Web site.




                               To help prevent fraud, waste, and abuse by reporting allegations of
To Report Fraud, Waste, and    fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs                 Web: www.sigar.mil/fraud
                                           Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                           Phone Afghanistan: +93 (0) 700-10-7300
                                           Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                           Phone International: +1-866-329-8893
                                           Phone DSN International: 312-664-0378
                                           U.S. fax: +1-703-601-4065




              Public Affairs   Public Affairs Officer
                                           Phone: 703-545-5974
                                           Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                           Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
